                                               NA TIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: AllOl0005                                                                 Page 1 of 1



                NSF OIG received an allegation of peer review violation l concerning an NSF Proposal?
         Our inquiry detennined the allegation was based on a misunderstanding of a conversation.
         Accordingly, there was no substance to the allegation and this case is closed.




NSF OIG Form 2 (11102)
